      Department of Homeland Security




            The State of Arkansas’ Management of
     State Homeland Security Program Grants Awarded
            During Fiscal Years 2008 Through 2010




OIG-12-116                                September 2012

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


                                      SEP 7 2012

MEMORANDUM FOR:              Elizabeth M. Harman
                             Assistant Administrator
                             Grant Programs Directorate
                             Federal Emergency Management Agency

FROM:                        Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:                     ThefStatefoffArkansas’fManagementfoffStatefHomelandf
                             SecurityfProgramfGrantsfAwardedfDuringfFiscalfYearsf2008f
                             Throughf2010f

Attached for your action is our final report, ThefStatefoffArkansas’fManagementfoffStatef
HomelandfSecurityfProgramfGrantsfAwardedfDuringfFiscalfYearsf2008fThroughf2010.ff
We incorporated the formal comments from the Federal Emergency Management
Agency (FEMA) in the final report.

The report contains five recommendations aimed at improving the overall management,
performance, and oversight of FEMA’s State Homeland Security grant program. Your
office and the Arkansas Department of Emergency Management concurred with four of
the recommendations. As prescribed by the Department of Homeland Security
Directive 077-1, Follow-Up and Resolutions for the Office of Inspector General Report
Recommendations, within 90 days of the date of this memorandum, please provide our
office with a written response that includes your (1) agreement or disagreement,
(2) corrective action plan, and (3) target completion date for each recommendation.
Also, please include responsible parties and any other supporting documentation
necessary to inform us about the current status of the recommendation. Until your
response is received and evaluated, the recommendations will be considered open and
unresolved.

Consistent with our responsibility under the InspectorfGeneralfAct, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant
Inspector General for Audits, at (202) 254-4100.

Attachment
                                         OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


    Table of Contents
   Executive Summary............................................................................................................. 1


   Background ........................................................................................................................ 2


   Results of Audit ................................................................................................................... 3


        Improvements Are Needed To Enhance the State of Arkansas’ Grant
        Management Practices ................................................................................................. 3
        Recommendations ..................................................................................................... 14
        Management Comments and OIG Analysis ............................................................... 15

   Appendixes
        Appendix A:           Objectives, Scope, and Methodology ................................................. 18 

        Appendix B:           FEMA Management Comments to the Draft Report .......................... 20 

        Appendix C:           State of Arkansas Management Comments to the Draft Report ....... 23 

        Appendix D:           Description of Homeland Security Grant Program ............................. 29 

        Appendix E:           Description of State of Arkansas’ Homeland Security Grant Program 

                              Process ................................................................................................ 30
        Appendix F:           Number of Days Elapsed Between Required Obligation and
                              Availability ........................................................................................... 31 

        Appendix G:           Major Contributors to This Report ..................................................... 32 

        Appendix H:           Report Distribution ............................................................................. 33 


   Abbreviations
        ADEM                  Arkansas Department of Emergency Management
        CFR                   Code of Federal Regulations
        DHS                   Department of Homeland Security
        FEMA                  Federal Emergency Management Agency
        FY                    fiscal year
        HSGP                  Homeland Security Grant Program
        MOA                   memorandum of agreement
        OIG                   Office of Inspector General
        SAA                   State Administrative Agency
        SHSP                  State Homeland Security Program




www.oig.dhs.gov                                                                                                                OIG-12-116
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Executive Summary
   Public Law 110-53, ImplementingfRecommendationsfoffthef9/11fCommissionfActfoff
   2007, as amended, requires the Department of Homeland Security (DHS) Office of
   Inspector General (OIG) to audit individual States’ management of State Homeland
   Security Program and Urban Areas Security Initiative grants. This report responds to the
   reporting requirement for the State of Arkansas.

   The objectives of the audit were to determine whether the State of Arkansas distributed
   and spent State Homeland Security Program grant funds effectively and efficiently, and
   in compliance with applicable Federal laws and regulations. We also addressed the
   extent to which grant funds enhanced the State’s ability to prevent, prepare for, protect
   against, and respond to natural disasters, acts of terrorism, and other manmade
   disasters. The audit included a review of approximately $19 million in State Homeland
   Security Program grants awarded to the State during fiscal years 2008 through 2010.

   Generally, the State of Arkansas distributed and spent the State Homeland Security
   Program grant awards in compliance with applicable laws and regulations. However,
   the following improvements are needed:

   •	 The State’s strategies should include measurable objectives.

   •	 The Federal Emergency Management Agency (FEMA) should issue guidance for
      developing adequate performance measures to assess overall State capabilities and
      preparedness.

   •	 The State Administrative Agency should obligate grant funds to subgrantees more
      timely.

   •	 The State Administrative Agency should better monitor subgrantees to ensure
      compliance with requirements pertaining to procurement, inventory, and
      accountability.

   These issues exist because FEMA and the State Administrative Agency, Arkansas
   Department of Emergency Management have not provided sufficient guidance and
   oversight for the grant process. Our five recommendations call for FEMA to initiate
   improvements that, if implemented, should help strengthen grant program
   management, performance, and oversight. FEMA concurred with four of the five
   recommendations.




www.oig.dhs.gov                                1                                 	   OIG-12-116
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Background
   DHS provides Federal funding through the Homeland Security Grant Program (HSGP) to
   help State and local agencies enhance capabilities to prevent, deter, respond to, and
   recover from terrorist attacks, major disasters, and other emergencies. Within DHS,
   FEMA is responsible for administering the HSGP. FEMA supports preparedness by
   developing policies, ensuring that adequate plans are in place and validated, defining
   capabilities required to address threats, providing resources and technical assistance to
   States, and synchronizing preparedness efforts throughout the Nation. Appendix D
   details the interrelated grant programs that constitute the HSGP.

   HSGP guidance requires the Governor of each State and U.S. Territory to designate a
   State Administrative Agency (SAA) to apply for and administer grant funding awarded
   under HSGP. The SAA is the only entity eligible to apply for HSGP funds. FEMA requires
   that the SAA be responsible for obligating grant funds to local units of government and
   other designated recipients within 45 days after receipt of funds. The Governor of
   Arkansas appointed the Arkansas Department of Emergency Management (ADEM) as
   the SAA. ADEM is not only the SAA but also the emergency management agency for the
   State of Arkansas.

   During FYs 2008, 2009, and 2010, the State of Arkansas was awarded approximately
   $19.3 million in State Homeland Security Program (SHSP) funds. Arkansas does not have
   an urban area designated by FEMA. During this period, ADEM subawarded SHSP funds
   to 77 local jurisdictions and 5 State agencies.

   Public Law 110-53, as amended, requires DHS OIG to audit individual States’
   management of SHSP and Urban Areas Security Initiative grants. This report responds
   to the reporting requirement for the State of Arkansas. Appendix A provides details on
   the objective, scope, and methodology of this audit.




www.oig.dhs.gov                                2                                      OIG-12-116
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Results of Audit
           Improvements Are Needed To Enhance the State of Arkansas’ Grant
           Management Practices

           Generally, the State of Arkansas distributed and spent the SHSP grant awards in
           compliance with applicable laws and regulations. However, the following
           improvements are needed:

            •	 The State’s strategies should include measurable objectives.

            •	 FEMA should issue guidance for developing adequate performance 

               measures to assess overall State capabilities and preparedness. 


            •	 ADEM should obligate grant funds to subgrantees more promptly.

            •	 ADEM should better monitor subgrantees to ensure compliance with 

               requirements pertaining to procurement, inventory, and accountability. 


           Homeland Security Strategies

           The State’s Homeland Security Strategy did not always contain measurable
           objectives. According to the DepartmentfoffHomelandfSecurityfStatefandfUrbanf
           AreasfHomelandfSecurityfStrategyfGuidancefonfAligningfStrategiesfwithfthef
           NationalfPreparednessfGoal, dated July 22, 2005,fan objective sets a tangible and
           measurable target level of performance over time against which actual
           achievement can be compared, including a goal expressed as a quantitative
           standard, value, or rate. For each goal, there should be at least one objective or
           performance measure against which to track progress. The guidance also
           mandates that an objective should be—

           •	 Specific, detailed, particular, and focused—helping to identify what is to be
              achieved and accomplished;

           •	 Measurable—quantifiable, providing a standard for comparison, and
              identifying a specific achievable result;

           •	 Achievable—not beyond a State, region, jurisdiction, or locality’s ability;

           •	 Results-oriented—identify a specific outcome; and



www.oig.dhs.gov                                 3                                  	    OIG-12-116
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           •	 Time-limited—having a target date to identify when the objective will be
              achieved.

           The State’s FYs 2008 through 2010 Homeland Security Strategy had 18 goals and
           85 objectives. The goals did not include measurable objectives to demonstrate
           quantifiable improvement and accomplishments to reduce the State’s
           vulnerability to terrorism and natural disasters. The State’s goals and objectives
           were not always updated. There were very limited changes or updates to the
           goals or objectives for any of the grant years we reviewed.

           According to a FEMA official, FEMA reviewed the State strategy to ensure
           compliance with the DepartmentfoffHomelandfSecurityfStatefandfUrbanfAreasf
           HomelandfSecurityfStrategyfGuidancefonfAligningfStrategiesfwithfthefNationalf
           PreparednessfGoal, which includes measurability, specificity, and timeliness.
           However, FEMA could not provide documentation of the review.

           The guidance requires that the State’s strategy contain measurable goals to
           assist in tracking progress. None of the 18 goals for FYs 2008 through 2010
           contained a measurable performance tracking method. Table 1 lists examples of
           shortcomings in the State’s strategy objectives.




www.oig.dhs.gov                                 4                                 	    OIG-12-116
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           Table 1: Shortcomings in the State’s Strategy Objectives 

                       Goal                           Objective                     Shortcomings
            FY 2008 Goal #1                1.4 Utilize resources available      The objective is not—
            (Prevention): Develop a        through local, State, and Federal     • Specific
            statewide, interoperable,      entities which will provide           • Measureable
            voice and data                 information from across the State     • Results-oriented
            communication network for      that can be shared through law
            State and local first          enforcement channels for
            responders.                    determination of credible
                                           intelligence. Estimated completion
                                           date is February 2009.
            FY 2008 Goal #4 (Recovery):    4.1 Ensure that all jurisdictions,   The objective is not—
            Ensure that each               State and local, have as a part of    • Specific
            jurisdiction has appropriate   their emergency operations plans      • Measureable
            means for recovery from a      all-hazard recovery that includes     • Results-oriented
            man caused and/or natural      man caused and/or natural
            disaster event using lessons   disasters. ADEM as the SAA will be
            learned from others so that    responsible for progression of
            there is a continued           objectives 4.1–4.3, with a
            progression of recovery        completion date of October 2007.
            efforts.
            FY 2009 Goal #1             1.1 Phase 1: Supported by both the      The objective is not—
            (Prevention): Develop a     Law Enforcement Terrorism                • Specific
            statewide, interoperable,   Prevention Program and the State         • Measureable
            voice and data              Homeland Security Program,               • Time limited
            communication network for   establish, upgrade, and/or enhance
            State and local first       interoperable communications
            responders.                 statewide through the Arkansas
                                        Wireless Information Network. This
                                        showed a completion date of
                                        December 2007.
            Source: DHS OIG and ADEM, State Homeland Security Strategy.


           Without adequate goals and measurable objectives, the State does not have an
           effective basis for monitoring progress, compiling key management information,
           tracking trends, and keeping planned work on track. Measurable goals and
           objectives would give the State a foundation to evaluate its progress on
           preparedness, prevention, response, and recovery capabilities.

           Performance Measures

           ADEM does not have sufficient performance measures to use as a basis for
           determining progress toward the goals and objectives in the State strategy.
           According to 44 Code of Federal Regulations (CFR) 13.40, Monitoring and
           Reporting Program Performance, grantees must monitor grant- and subgrant-
           supported activities to ensure that performance goals are being achieved.


www.oig.dhs.gov                                      5                                           OIG-12-116
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           Based on the activities presented to our team, there is no way to evaluate the
           progress of the State’s emergency preparedness and response capabilities as a
           result of grant funding. The State develops goals in the strategy to determine
           what it will accomplish to be better prepared for manmade and natural disasters.
           The objective within the strategy explains how the State plans to accomplish the
           goals. The Homeland Security National Preparedness Guidelines explain that for
           each goal, there should be at least one objective or performance measure to
           track progress in achieving the goal.

           In the absence of guidance from FEMA, ADEM officials said that they measure
           performance by conducting exercises and generating after-action reports. Based
           on the results of these exercises and reports, ADEM officials assert that they know
           how prepared they are to respond to emergencies. Although the after-action
           reports provide lessons learned and areas for improvement, the results are not
           quantifiable.

           FEMA has not provided specific guidance to States for developing performance
           measures. FEMA has given States emergency preparedness priorities and target
           capability needs. States use this information as a basis for their State Self-
           Assessments.1 However, the guidance has changed each year since 2008 in
           substantive ways that require States to shift priorities and focus. ADEM officials
           said these changes make it difficult to measure performance and to make year-
           to-year comparisons.

           Under Public Law 111-271, RedundancyfEliminationfandfEnhancedfPerformancef
           forfPreparednessfGrantsfAct, Congress required the National Academy of Public
           Administration to assist FEMA with developing and implementing measurable
           national preparedness capability requirements and evaluation criteria (in terms
           of speed, effectiveness, and efficiency, among other factors). These requirements
           will include a specific timetable for developing a set of quantifiable performance
           measures and metrics to assess the effectiveness of the programs under which
           covered grants are awarded.

           Without adequate performance measures, ADEM does not have a sufficient
           basis to evaluate progress in emergency preparedness and response capabilities
           as a result of grant expenditures. ADEM is unable to adequately determine
           progress toward its goals and objectives.



   1
    The Arkansas Capabilities Assessment Tool project was ADEM’s process for assessing current levels of
   specific target capabilities.


www.oig.dhs.gov                                       6                                            OIG-12-116
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


           Timely Obligation of Grant Funds

           ADEM did not obligate SHSP funds within 45 days as stipulated in the FEMAf
           HomelandfSecurityfGrantfProgramfGuidance.ffThis guidance requires ADEM to
           obligate passthrough grant funds within 45 days of FEMA’s award date and
           includes the following requirements:

           •	 There must be some action to establish a firm commitment on the part of
              the awarding entity.

           •	 The action must be unconditional (i.e., no contingencies for availability of
              funds) on the part of the awarding entity.

           •	 There must be documentary evidence of the commitment.

           •	 The award terms must be communicated to the official grantee.

           ADEM did not obligate funds timely to subgrantees for acquiring goods and
           services. We reviewed 16 subgrantees for FYs 2008 through 2010, and in all
           instances grant funds were not obligated to the subgrantees timely.2 For
           example, funds were not made available to one subgrantee until 1,031 days after
           the required period. Appendix F illustrates the calculation of the number of days
           elapsed between the required obligation date and the actual date grant funds
           were obligated and made available to the subgrantees.

           We attribute the delays in funding obligation to ADEM policies regarding the
           release of funds to subgrantees. Subgrantees must spend the entire prior year’s
           grant funds before they can spend grant funds for the next fiscal year. This
           prevents subgrantees from planning projects extending over multiple award
           periods and starting other projects with the next year’s funding. Subgrantees
           must also have the following year’s budget approved before they can spend
           funds. By delaying funding, ADEM reduces subgrantees’ procurement timelines
           and their ability to obtain the best price for goods and services.

           Procurement Practices

           The State and subgrantees have not ensured that Federal, State, and local
           regulations were followed for procurements of equipment and services with


   2
    The 16 subgrantees include only local jurisdictions. The two State agencies excluded from the analysis
   were not subject to the same policies for availability of funds.


www.oig.dhs.gov                                        7                                       	     OIG-12-116
                                     OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


           HSGP funds. We identified 14 of 18 subgrantees that did not adhere to Federal,
           State, and local procurement requirements by failing to—

           •      Obtain an adequate number of qualified quotes or formal bids;
           •      Conduct a cost analysis; or
           •      Justify sole source procurements.

           Table 2 lists the subgrantees with noncompliant procurement transactions and
           the dollar values, which total more than $1 million.

            Table 2: Number of Noncompliant Procurement Transactions and Dollar Values
                                                                     Total Dollar
                                       Number of      Number of       Value of
                                      Procurement    Procurement     Questioned       Federal, State, or
                                      Transactions   Transactions   Procurement     Local Requirements
                   Subgrantee          Reviewed       Questioned    Transactions          Violated
                                                                                     • Rate Quotes
                                                                                     • Cost Analysis
               Arkansas State                                                        • Sole Source
               Police                     10              7             $458,244       Justification
                                                                                     • Formal Bidding
                                                                                     • Rate Quotes
               City of Little Rock        10              8             $231,848     • Cost Analysis
                                                                                     • Formal Bidding
               Union County                9              6             $203,098     • Rate Quotes
               Washington County           8              3              $57,313     • Rate Quotes
                                                                                     • Formal Bidding
            Faulkner County                9              7              $41,913     • Rate Quotes
            Greene County                  7              7              $48,362     • Rate Quotes
            Lawrence County                9              8              $30,183     • Rate Quotes
            Garland County                 4              4              $38,252     • Rate Quotes
            Crittenden County             12              1              $28,026     • Rate Quotes
            Benton County                  6              2              $24,841     • Rate Quotes
            Logan County                   6              4              $15,097     • Rate Quotes
            Pulaski County                11              1              $14,900     • Rate Quotes
            Saline County                  6              2              $13,420     • Rate Quotes
            Sebastian County               7              3               $1,400     • Rate Quotes
            Totals                        114             63          $1,206,897
           Source: DHS OIG.

           According to 44 CFR Section 13.36, Procurement Standards,fsubgrantees will use
           their own procurement procedures, which reflect applicable State and local laws
           and regulations, provided that the procurements conform to applicable Federal
           law. This regulation provides uniform administrative requirements for grants



www.oig.dhs.gov                                       8                                         OIG-12-116
                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           and cooperative agreements awarded to State and local governments. Federal
           procurement regulations governing subgrantees require the following:

           •	 All procurement transactions will be conducted in a manner providing full
              and open competition consistent with the standards of Section 13.36.
              44 CFR 13.36(c)(1).

           •	 Small purchase procedures are relatively simple and informal procurement
              methods for securing services, supplies, or other property that do not cost
              more than the simplified acquisition threshold fixed at 41 U.S.C. 403(11)
              (currently $100,000). If small purchase procedures are used, price or rate
              quotations shall be obtained from an adequate number of qualified sources.
              44 CFR 13.36(d)(1).

           •	 Procurement by noncompetitive proposals may be used only when the
              award of a contract is infeasible under small purchase procedures, sealed
              bids, or competitive proposals, and in one of the following circumstances:
              44 CFR 13.36(d)(4)(i).

                  -	 the item is available only from a single source;
                  -	 the public exigency or emergency for the requirement will not permit a
                     delay resulting from competitive solicitation;
                  -	 the awarding agency authorizes noncompetitive proposals; or
                  -	 after solicitation of a number of sources, competition is determined
                     inadequate.

           •	 A cost analysis (i.e., verifying the proposed cost data, the projections of the
              data, and the evaluation of the specific elements of costs and profits) is
              required. A cost analysis will be necessary when adequate price competition
              is lacking, and for sole source procurements, unless price reasonableness can
              be established by methods described in 44 CFR 13.36(f)(1). 44 CFR
              13.36(d)(4)(ii), (f)(1).

           We identified sole source requests processed without proper justifications. One
           subgrantee awarded sole source contracts using FY 2008 grant funds for five of
           seven procurement transactions, totaling approximately $100,000. There is no
           documentation in the procurement file supporting the subgrantee’s research of
           other vendors capable of performing the tasks. Also, none of the letters of
           justification were signed by an agency official.




www.oig.dhs.gov                                  9                                 	   OIG-12-116
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           According to 44 CFR 13.36(b)(1), subgrantees will use their own procurement
           procedures as long as they conform to applicable Federal law and regulations.
           State of Arkansas Regulations R1:19-11-232 and R2:19-11-232 provide the
           requirements for requesting a sole source designation. An additional policy
           directive establishes guidance for agencies requesting approval of sole source
           purchases. Letters of justification are to be forwarded on agency letterhead
           addressed to the director of state procurement. The agency director, chief
           financial officer, deputy director, or administrator must review and sign each
           sole source justification letter. Sole source justification must be processed
           through the agency purchasing agent to the Office of State Procurement.
           Specific information should include detailed answers to the following questions:

           •	 Why is this service or commodity needed?
           •	 What method(s) were used to determine that a lack of responsible
              competition exists for this service or commodity?
           •	 How was it determined that this service, provider, or commodity has
              exclusive processes or properties?
           •	 Can requirements be modified so that the services or commodity can be
              competitively bid? If not, why?
           •	 Are there patent, copyright, or proprietary rights that make the required
              service or commodity unavailable from other sources?
           •	 What would the agency do if the service or commodity were no longer
              available?
           •	 What program considerations make the use of a sole source critical to the
              successful completion of the task(s)?

           The noncompetitive procurements can be attributed to ADEM’s and the
           subgrantees’ limited knowledge of procurement requirements. Although
           memorandums of agreement (MOAs) between ADEM and its subgrantees
           require compliance with 44 CFR Part 13, the Uniform Administrative
           Requirements for Grants and Cooperative Agreements to State and Local
           Governments, the MOAs do not specifically mention Section 13.36, Procurement.
           Compliance with Federal procurement regulations is not emphasized during
           ADEM’s mandatory annual grant program overview conferences.

           According to an ADEM official, resources are limited for conducting onsite
           monitoring and uncovering subgrantee issues with following Federal
           procurement standards. ADEM has two grant program coordinators and a
           branch manager who are responsible for administering SHSP, which includes
           reviewing and approving budgets and payment requests for 77 local jurisdictions.




www.oig.dhs.gov                               10                                 	    OIG-12-116
                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


              Without full and open competition, cost analysis, or sole source justification, the
              grantee cannot be assured that the cost of the equipment or services is
              reasonable. Accordingly, the justification must include a cost analysis showing
              that a noncompetitive procurement is appropriate. This analysis will determine
              the reasonableness of the proposed price.

              Grant Inventory Requirements

              ADEM did not always meet grant inventory requirements. Federal regulation
              44 CFR 13.32(d), Management Requirements, establishes procedures for
              subgrantees to manage equipment (including replacement equipment), whether
              acquired in whole or in part with grant funds, and includes the following
              minimum requirements:

              •	 Property records must be maintained and include the property’s description,
                 identification number, source of the property, and the title holder,
                 acquisition date, cost and percentage of Federal funds used in the cost,
                 location, use and condition, and ultimate disposition. 44 CFR 13.32(d)(1).

              •	 A physical inventory of the property must be taken and the results reconciled
                 with the property records at least every 2 years. 44 CFR 13.32(d)(2).

              •	 A control system must be developed to ensure that adequate safeguards are
                 in place to prevent loss, damage, or theft of the property. Any loss, damage,
                 or theft shall be investigated. 44 CFR 13.32(d)(3).

              •	 Adequate maintenance procedures must be developed to keep the property
                 in good condition. 44 CFR 13.32(d)(4).

              ADEM’s inventory records did not always include serial numbers or other
              identifying numbers, accurate locations of equipment, and the Federal funds
              percentage. ADEM requires subgrantees to conduct semiannual inventory
              reviews, which include reporting inventory details to ADEM’s inventory website.
              This requirement is included in the subgrantee MOA with ADEM.

              ADEM inventory records did not show the Federal funds percentage for all
              purchases of the 173 subgrantees we reviewed. An ADEM official believes that
              the inventory listing was meant to track the items purchased with the grant
              funds and did not find it necessary to have a percentage of Federal participation
              column in the inventory.

   3
       Only 17 subgrantees acquired and maintained equipment within our audit scope.


www.oig.dhs.gov                                       11                               	   OIG-12-116
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



           In some instances inventory was not tracked or stored properly. Only 9 of the 17
           subgrantees reviewed included all required serial or other identifying numbers in
           their inventory listing. ADEM records also showed two instances where
           equipment purchased was assigned to one location, but the physical location
           was elsewhere.

           Subgrantees did not always mark equipment purchased with HSGP funds. The
           FEMA grant agreement requires grant recipients, when practicable, to
           prominently mark any equipment purchased with grant funding with the
           statement, “Purchased with funds provided by the U.S. Department of
           Homeland Security.” This is to ensure that equipment purchased is easily
           identified and its intended use can be verified. None of the equipment we
           reviewed included such markings. This caused confusion when we attempted to
           validate the existence of a piece of equipment costing more than $100,000.

           ADEM relies on the subgrantees to provide updated and complete information
           for the inventory listing. ADEM’s division director of administration said that
           most subgrantees mark the larger equipment purchased with grant funds with
           tags and believes this satisfies the intent of the Federal requirement.

           Because of the limited oversight, subgrantees did not comply with ADEM’s
           inventory reporting requirements, even though they are made aware of these
           requirements in the MOA with ADEM. ADEM ensures that the subgrantees are
           aware of their requirement to report inventory twice a year, but has not
           conducted any onsite visits to verify proper labeling of equipment. As a result,
           ADEM cannot be assured that assets procured with grant funds are adequately
           safeguarded to prevent loss, damage, or theft, and used as intended. This could
           result in an emergency situation in which ADEM may not always have knowledge
           of the location or ready access to vital emergency preparedness equipment.

           Subgrantee Program Monitoring

           ADEM’s monitoring efforts did not ensure subgrantee compliance with Federal
           laws and regulations. Office of Management and Budget Circular A-133,
           Compliance Supplement, Part 3-M, requires grantees to monitor subgrantees’
           use of Federal awards through reporting, site visits, regular contact, or other
           means. Federal regulation 44 CFR 13.40, Monitoring and Reporting Program
           Performance, requires grantees to (1) provide day-to-day management of all
           grant- and subgrant-supported activities and (2) ensure that subgrantees comply
           with applicable Federal requirements and achieve program performance goals.



www.oig.dhs.gov                               12                                      OIG-12-116
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Some grant funds were being used for other than the intended purposes.
           According to 44 CFR 13.32(c),fequipment shall be used by the grantee or
           subgrantee in the program or project for which it was acquired as long as
           needed, whether or not the project or program continues to be supported by
           Federal funds. We identified a subgrantee that purchased a vehicle intended for
           use by the bomb response team, yet the truck was marked and being used by
           the special weapons and tactics unit (see figure 1).

                         Figure 1: Photos of Vehicle Intended for Bomb Squad




                         Source: DHS OIG.

           ADEM monitors subgrantees through desk reviews of subgrantee budgets,
           payments, an inventory database, and after-action reports. ADEM also has area
           coordinators assigned to each region to assist in monitoring the region’s
           subgrantees if needed. However, these efforts do not always ensure subgrantee
           compliance with Federal laws and requirements. In addition, it was only when
           we asked for copies of any reviews that ADEM discovered that no reviews of
           subgrantees were conducted during the FYs 2008 through 2010 grant years.

           ADEM’s desk monitoring involves fielding inquiries and reimbursing subgrantees
           for submitted expenses. The process allows ADEM to track subgrantee
           expenditures to ensure proper use of grant funds. ADEM grant managers review
           receipts and expenditures to ensure that they are included in approved budgets
           and that projects are complete and meet approved target capabilities. However,
           the reimbursement process tracks financial data only and does not account for
           other monitoring requirements, including inventory of assets and verification of
           intended use.

           According to the director of administration for ADEM, ADEM did not monitor any
           of the subgrantees we reviewed for performance for the fiscal years included in
           our review. Although ADEM maintains an inventory database that tracks
           equipment purchases, it did not conduct physical verification of subgrantee
           inventory. Without proper oversight, abuse of Federal funding may occur,
           because ADEM cannot ensure that the subgrantees are using grant funds as
           intended.


www.oig.dhs.gov                               13                                    OIG-12-116
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           Recommendations

           We recommend that the Federal Emergency Management Agency Assistant
           Administrator, Grant Programs Directorate:

           Recommendation #1:

           Require the director of the Arkansas Department of Emergency Management to
           revise its Homeland Security State Strategy to include specific, measurable, and
           results-oriented objectives in compliance with the most recent DHS guidance.

           Recommendation #2:

           Issue guidance for developing adequate performance measures to assess all of
           the State’s capabilities and preparedness.

           Recommendation #3:

           Require the director of the Arkansas Department of Emergency Management to
           remove the requirement for expending prior grant years’ funds from the
           memorandums of agreement so that funds are available to subgrantees in a
           timely manner.

           Recommendation #4: 


           Require the director of the Arkansas Department of Emergency Management to— 


                  •	 Correct deficiencies identified pertaining to inventory records and
                     property tags.

                  •	 Emphasize during annual grant workshops the need to follow 44 CFR
                     Sections 13.36 and 13.32 (Federal procurement and property inventory
                     requirements), highlighting deficiencies identified during this audit.

           Recommendation #5:

           Require the director of the Arkansas Department of Emergency Management to
           increase onsite monitoring to ensure subgrantee compliance with procurement,
           inventory, and accountability requirements.




www.oig.dhs.gov                                   14                                 	     OIG-12-116
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Management Comments and OIG Analysis

           FEMA agreed with four of the five recommendations. FEMA acknowledged the
           need to improve the process. FEMA will use the findings and recommendations
           in the report to strengthen the effectiveness and efficiency of the programs’
           execution and measurement.

           FEMA’s and the State’s Response to Recommendation #1: FEMA concurred
           with the recommendation. During their programmatic monitoring visit
           conducted in September 2011, updates to the strategy were identified and are
           pending submission. These revised goals and objectives should be specific,
           measurable, achievable, results oriented, and time limited, and able to serve the
           State well in its homeland security efforts going forward. FEMA asked the State
           to submit its revised Homeland Security Strategy into the Grants Reporting Tool
           within 90 days of the Corrective Action Plan.

           ADEM indicated that it has already implemented an annual review of the State
           Homeland Security Strategy and will continue to list goals and objectives that
           support projects that can be measured based on ADEM’s baseline and
           measurements until directed otherwise by FEMA.

           OIG Analysis: FEMA’s planned corrective actions, once implemented, should
           resolve the recommendation. This recommendation will remain open and
           unresolved until we have reviewed the revised Strategic Plan.

           FEMA’s and the State’s Response to Recommendation #2: FEMA concurred
           with the recommendation. FEMA is coordinating with DHS stakeholders in the
           National Preparedness Directorate and the National Preparedness Assessment
           Division to develop metrics for grant program performance. FEMA expects these
           metrics to be incorporated into the FY 2012 grant programs, and modified
           annually for future programs to reflect current policies and new DHS priorities.

           ADEM responded that until a comprehensive performance measurement is put
           into place nationwide, it will continue to measure capability based on its
           assessment tool and its established baseline.

           OIG Analysis: FEMA’s plan to develop metrics for grant program performance,
           once implemented, should resolve the recommendation. This recommendation
           will remain open and unresolved until we have reviewed the metrics.

           FEMA’s and the State’s Response to Recommendation #3: FEMA did not concur
           with the recommendation. FEMA found the SAA to be compliant with its


www.oig.dhs.gov                               15                                      OIG-12-116
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           requirement to obligate at least 80 percent of the funds awarded under the
           SHSP to local units of government within 45 days of receipt of funds.

           ADEM advised that in order to manage the grant program for the State of
           Arkansas and provide timely information concerning its expenditures to
           Congress, it intends to continue its established practice. The State recognizes
           this approach as the best practice for ensuring adequate accounting and
           jurisdiction satisfaction for the grant program.

           OIG Analysis: We do not agree with FEMA that the SAA is compliant with the
           requirement to obligate at least 80 percent of the funds to the local units within
           45 days of receipt. According to grant guidance, the 45-day obligation must be
           unconditional (i.e., no contingencies for availability of funds) on the part of the
           awarding entity. Since the SAA requires subgrantees to spend their entire prior
           year’s grant funds before it makes grant funds available for the next fiscal year, it
           did not obligate funds within the 45-day timeframe. Therefore, this
           recommendation will remain open and unresolved until FEMA provides an action
           plan and evidence that it is consistently ensuring that funds are available timely
           to subgrantees.

           FEMA’s and the State’s Response to Recommendation #4: FEMA concurred
           with the recommendation. FEMA responded that the SAA is responsible for
           ensuring that all property acquired with grant funds is inventoried and
           maintained according to the standards in 44 CFR Sections 13.36 and 13.32.
           FEMA asked ADEM to provide documentation detailing how it will correct
           deficiencies and communicate the requirements with subgrantees more
           effectively. FEMA asked that this documentation be submitted within 90 days.

           ADEM agreed and added that subgrantees will be more closely monitored. The
           State also will ensure that inventory is more clearly marked and procurement
           procedures better defined during desk and onsite monitoring visits. With the
           substantantial decrease in funding beginning in FY 2012, the State will be
           changing its entire award process and will look to suggestions as it puts the new
           system into place.

           OIG Analysis: FEMA’s corrective action should resolve the recommendation.
           However, this recommendation will remain open and unresolved until we have
           reviewed documentation of the SAA correcting deficiencies and communicating
           the requirements to its subgrantees.

           FEMA’s and the State’s Response to Recommendation #5: FEMA concurred
           with the recommendation. FEMA indicated that it is the SAA’s responsibility to


www.oig.dhs.gov                                 16                                       OIG-12-116
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           monitor all subaward activities to ensure compliance with Federal and State
           laws, regulations, and guidance. Responsibilities include accounting for receipts
           and expenditures, managing cash, maintaining adequate financial records, and
           reporting and refunding expenditures disallowed by audits, monitoring, or other
           assessments and reviews. FEMA asked the SAA to provide documentation
           detailing how it will implement a more comprehensive subgrantee monitoring
           program for more effective oversight. FEMA asked that this documentation be
           submitted within 90 days.

           In its response, ADEM advised that protocols for monitoring as well as a regular
           schedule have already been put into place.

           OIG Analysis: FEMA’s corrective action should resolve the recommendation.
           This recommendation will remain open and unresolved until we have reviewed
           documentation of the SAA’s implementation of a more comprehensive
           subgrantee monitoring program for more effective oversight of its subgrantees.




www.oig.dhs.gov                                17                                     OIG-12-116
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the HomelandfSecurityfActfoff2002 (Public Law 107-296) by amendment
   to the InspectorfGeneralfActfoff1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   This report provides the results of our work to determine whether the State of Arkansas
   spent SHSP grant funds (1) effectively and efficiently and (2) in compliance with
   applicable Federal laws and regulations. We also addressed the extent to which funds
   enhanced the State’s ability to prevent, prepare for, protect against, and respond to
   natural disasters, acts of terrorism, and other manmade disasters.

   HSGP and its interrelated grant programs fund a range of preparedness activities,
   including planning, organization, equipment purchase, training, exercises, and
   management and administration costs. However, only SHSP funding, equipment, and
   supported programs were reviewed for compliance. The scope of the audit included the
   SHSP grant awards for FYs 2008, 2009, and 2010. We reviewed the State’s plans to
   improve preparedness and all-hazards response, the goals set within those plans, the
   measurement of progress toward the goals, and the assessments of performance
   improvement that result from this activity (see table 3).

       Table 3: State of Arkansas Homeland Security Grant Program Awards
                  Funded Activity             FY 2008        FY 2009     FY 2010        Total
       State Homeland Security Program      $ 6,170,000     $ 6,524,500  $ 6,613,200 $19,307,700
       Citizen Corps Program                  $190,973        $190,294     $162,925    $544,192
       Metropolitan Medical Response
       System Program                         $ 321,221        $321,221    $317,419    $959,861
                        Total                $6,682,194      $7,036,015  $7,093,544 $20,811,753
       Source: DHS OIG.


   We visited the designated SAA, ADEM, and the following 18 subgrantees4 that had been
   awarded funding in FYs 2008, 2009, and 2010.

   •      Arkansas Department of Emergency Management (State agency)
   •      Arkansas State Police (State agency)
   •      City of Little Rock Office of Emergency Management


   4
       The 18 subgrantees were selected from 77 local jurisdictions and five State agencies.


www.oig.dhs.gov                                          18                                    OIG-12-116
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   •	   Benton County
   •	   Craighead County
   •	   Crittenden County
   •	   Faulkner County
   •	   Garland County
   •	   Greene County
   •	   Jackson County
   •	   Lawrence County
   •	   Logan County
   •	   Mississippi County
   •	   Pulaski County
   •	   Saline County
   •	   Sebastian County
   •	   Union County
   •	   Washington County

   At each location, we interviewed responsible officials, reviewed documentation
   supporting State and subgrantee management of grant funds, and inspected selected
   equipment procured with grant funds. We also judgmentally selected transactions to
   determine whether funds were expended according to grant requirements and Federal,
   State, and local regulations. In addition, for 16 of the subgrantees we reviewed the
   timely obligation of grant funds, and for 17 of the subgrantees we reviewed inventory
   records. Our selection was based on the following criteria:

   •	 The top two State agencies, because they received 90 percent of the SHSP funds
      allocated to State agencies for the 3 years;

   •	 The five local jurisdictions in the mid-Arkansas area, because they averaged more
      than $100,000 in SHSP funds for the 3 years; and

   •	 The top two local jurisdictions receiving SHSP funds for the 3 years in the other areas
      of the State, to ensure coverage throughout the State.

   We conducted this performance audit between October 2011 and April 2012 pursuant
   to the InspectorfGeneralfActfoff1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.



www.oig.dhs.gov                               19                                  	   OIG-12-116
                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security


   Appendix B
   FEMA Management Comments to the Draft Report
                                                                         u.s. Dtpl l'1 mt.n 1 or II Dmtla nd S",ur; l )'
                                                                                          Washi l\i.1on. DC 20472




                                                   Jl/l 30 :",


             MEMORANDUM FOR:               Anne L. Richards
                                           Assistant Inspector General for Audits
                                           Office of Inspector General

                                      >uJ'-- David J.   Kaufman~~ L.~
                                      V Director
                                           Office of Policy and Program Analysis

             SUBJECT,                      Comments to OIG Draft Report, The Sfate ofArkansas '
                                           Mallagemem olStafc Nome/and Security Grams Awarded During
                                           Fiscct/ Years 2008 flll"Oligh 20/0


             Thank you for the opportunity to comment on the draft rcport. The findings in the report will be
             used to strengthen the effectiveness and efficicney of how we execute and measure our
             programs. We recognize the need to continue to improve the process, including addressing the
             recommendations raised in this report. Our responses to the recommendations are as follows:

             OIG Reco mm endation # 1: We recommend that the Federal Emergency Management Agency
             Assistant Administrator, Grant Programs Directorate require the director of the Arkansas
             Department of Emergency Management to revise its Homeland Security State Strategy to include
             speci fi c, measurable, and results oriented objectives in compliance with the most recent DHS
             guidance.

             FEMA Response to Recommendation #1: FEMA concurs with this recommendation . FE~lA
             approved the State's Homeland Security Strategy revision in March 2011. During the
             programmatic monitoring visit conducted by FEMA in September 20 11 , updates to the Strategy
             were identified; these changes are currently pending submission to FEMA. It is also FEMA ' s
             intent that these revised goals and objectives are specific, measureable, achievable, resuils·
             oriented, and time limited, and will serve the State well in its homeland security efforts going
             forward. FEMA requests that the State submit its revised Homeland Security Strategy into the
             Grants Repon ing Tool within 90 days of this Corrective Action Plan.

             OIG Reco mmendation #2: We recommend that the Federal Emergency Management Agency
             Assistant Administrator, Grant Programs Directorate require the Director o f the Arkansas




www.oig.dhs.gov                                                  20                                                        OIG-12-116
                                    OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




              Department of Emergency Management to issue guidance for developing adequate performance
              measures to assess all of the State's capabilities and preparedness.

              FEMA Response to Recommendation ##2: FEMA concurs with the recommendation. The 2011
              State Preparedness Report (SPR) Survey Tool is a significant departure from past versions of the
              tool as it aligns to Presidential Policy Directive 8 and requires each State Administrative Agency
              (SAA) to assess preparedness levels against 31 Core Capabilities. The past version of the SPR
              Survey Tool was predicated on 37 Target Capabilities and not Core Capabilities. The SAA and
              its state partners completed the assessments on behalf of its 77 counties.

              In addition to the SAA completing and submitting an annual SPR to FEMA as required under
              the Homeland Security Grant Program, the SAA has also developed a statewide Homeland
              Security Strategy that will help shape the State of Arkansas' future homeland security and
              preparedness priorities, ultimately ensuring that the state can be both prepared and resilient in
              the face of a threat, hazard or terrorist event.

              FEMA is coordinating with DHS stakeholders in the National Preparedness Directorate (NPD)
              and the National Preparedness Assessment Division (NP AD) for the development of metrics for
              grant program performance. These metrics are anticipated to be incorporated into the FY 2012
              grant programs, and modified annually for future programs to reflect current policies and new
              DHS priorities.

              Based on the SAA' s completion of the SPRand Homeland Security Strategy, coupled with
              FEMA's current performance measmement initiatives, FEMA believes this recommendation
              has been fully addressed, and therefore requests the recommendation be considered resolved
              and closed.

              OIG RecommeDdation ##3: We recommend that the Federal Emergency Management Agency
              Assistant Administrator, Grant. Programs Directorate require the director of the Arkansas
              Department of Emergency Management to remove the requirement for expending prior grant
              years' funds from the memoranda of agreement so that funds are available to subgrantees in a
              timely manner.

              FEMA Response to Recommendation ##3: FEMA does not concur with this recommendation.
              FEMA has found the SAA to be compliant with its requirement to obligate at least 800/0 of the
              funds awarded under the State Homeland Security Grant Program to local units of government
              within 45 days of receipt of funds. FEMA has enclosed the Initial Strategy Implementation Plan
              (ISIP) reports from FEMA's Grants Reporting Tool demonstrating Arkansas' obligation of
              funding to local units of government within the 45 day requirement (see dates for submission and
              approved) for 2008, 2009 and 20 I O. These enclosures demonstrate that the SAA obligated more
              than their required 80% of funds to local governments.

              FEMA recognizes this to be appropriate grants management practice and requests this
              recommendation to be resolv~ and closed.




www.oig.dhs.gov                                               21                                                   OIG-12-116
                                    OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




              OIG Recommendation #4: We recommend that the Federal Emergency Management Agency
              Assistant Administrator, Grant Programs Directorate require the Director of the Arkansas
              Department of Emergency Management to:
                 • Correct deficiencies identified pertaining to inventory records and property tags.
                 o Emphasize during ann4a1 grant workshops the need to follow CFR Title 44 Section 13.36
                     and 13.32 (Federal procurement and property inventory requirements), highlighting
                     deficiencies identified during this audit.

              FEMA Response to Recommendation #4: FEMA concurs with the recommendation. As the
              primary grantee, it is the SAA's responsibility to ensure all property acquired with grant funds is
              inventoried and maintained to the standards identified in CFR Title 44 Section 13.36 and 13.32.
              FEMA requests the 8AA provide docwnentation detailing how the 8M will correct these
              deficiencies and communicate the requirements with sub grantees more effectively. FEMA
              requests this documentation be submitted to the FEMA Grant Programs Directorate Program
              Analyst within 90 days.

              OIG Recommendation #5: We recommend that the Federal Emergency Management Agency
              Assistant Administrator, Grant Programs Directorate require the director of the Arkansas
              Department of Emergency Management to increase onsite monitoring to ensure subgrantee
              compliance with procurement,.inventory, and accountability requirements.

              FEMA Response to Recommendation #5: FEMA conClm with the recommendation. As the
              primary grantee, it is the 8AA' s responsibility to monitor all sub.award activities to ensure
              compliance with federal and state laws, regulations, and guidance. Responsibilities include the
              accolUlting of receipts and expenditwes. cash management, maintaining of adequate financial
              records, reporting and refunding expenditwes disallowed by audits, monitoring or other
              assessments and reviews. FEMA requests the SAA provide documentation detailing how the
              SAA will implement a more comprehensive sub grantee monitoring program for more effective
              oversight. FEMA requests this documentation be submitted to the FEMA Grant Programs
              Directorate Program Analyst within 90 days.

              Again. we thank: you for the opportunity to provide our comments concerning your draft report.
              Please feel free to contact our audit liaison, Gina Norton at 202-646-4287, with additional
              questions or concerns.




www.oig.dhs.gov                                              22                                                     OIG-12-116
                                    OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security


   Appendix C
   State of Arkansas Management Comments to the Draft Report



                                         STATE OF ARKANSAS
                                DEPARTMENT OF EMERGENC Y MANAGEMENT


           MIKE BEEBE
            GOVERJ\OR




                                                              July 31, 2012




             Ms, Anne L. Richards
             Assistant Inspector General for Audits
             DHS Office of Inspector General
             245 Murray Drive. SW, Building 410
             Washington, DC 20528

             Re: State of Arkansas ' Management of State Homeland Security Program Grants Awarded
                 DlU'ing Fiscal Years 2008-20 J    a-
                                                 Arkansas' ",'Titten comments to the Draft Report

             Dear Ms. Richards:

             Below please find comments concerning the OIG audit report for Ihe State of Arkansas State
             Homeland Security Grant Program.

             Improvements Are Needed to Enhance ,lte State ofArkansas' Grant Jfa"agemenl Practices

             Homeland Security Strategies
             During the writing process of the Homeland Security Strategies, which was reviewed during the
             audit, the Stal~ submiltt:u gual:s and objectives that met the guidel ines provided by Homeland
             Security. Although the strategies were written for the State to have a working document with
             whieh to move forward on projects, a major goal for us and many States was to also write a
             strategy that followed the Homeland Security (irant Program guide lines and would allow for the
             expenditure of the grant funds. The strategies were written pcr the guidance as was interpreted
             by our working groups, then provided to Homeland Security, as required, for their approval
             before any grant funding eouJd be expended . The report says that, "FEMA reviewed the State
             strategy to ensure compliance .. However, FEMA could not provide documentation to support
             that review." The following response was provided by FEMA in response to the question about
             fEMA 's review of our state strategy. "The 2008 Strategy was "ported" [10m a previous system
             into FEMA's Grants Reporting Tool (GRT) in 2007. This means that the document was
             originally submitted by the state and approved, and then was transitioncd into the GRT in 2007;
             according to GRT records, no changes were made until Novemher 2009. Each year, FEMA rolls
             the current version of every strategy into the next year. So it's possible that your 2007, 2008 and
             2009 strategies are all exactly the same even though they have different dates. It is up to
             individual grantees to update their strategies as deemed necessary; as priorities change and as
             goals and objectives ate accomplished and new ones arc identified. FEMA reviews stmtegy


                                   Arkansas' Homel,md SecurIty & DIsaster Preparedness Agem;:y
                                  Bulkllng 9501, Ca'llp Joseph r. R<Jblnson. North Little Rock. AR n1~.s600
                                         501-683-670i1 • FAX 5(11-683-1890 .1'I"tI/¥rI.1Idem.lrkansas.g<Jv
                                                      AN EQUAl.. OPPORlUNITY EMPLOYER




www.oig.dhs.gov                                                       23                                           OIG-12-116
                                       OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security




             Ms. Anne L. Richards                                 2                                   July 31 , 2012




             submissions against the criteria in the 2005 document referenced in your email below, for
             measurability, specificity, quantifiable and time-oriented. Unfortunately, I have no reports to
             provide for this request.

             The questions penaining to the state strategy where very unexpected during this audit since each
             state was required to use a template, based on the guidelines provided to us and then the strategy
             was subsequently approved by FEMA before awards were even made.

                  In reference to the shnrtcomings nn page 5:

                  Objective 1.4 is meant to show that the state will use resources available (wbether that is funding,
                  equipment, manpower, etc) to share infonnation for use by the law enforcement community in the
                  area of interoperable communications. .A.nd also allows for the use of the Law Enforcement
                  Terrorism Prevention Program funds in order to support this goal (sioce grant funds can only be
                  used in support of projects identified in the Homeland Security Strategy). This objective is
                  specific since it can be tested by determining what resources were used; it is mcasureable and
                  results oriented if interoperable communications is p:Jssible after the purchase of equipment which
                  is tested through the uc;e of exercises and/or real world event" to detennine if we have met the goal
                  and if indeed infonnation can be shared across law enforcement channels. This objective as with
                  all others does provide an estimated completion date.

                  Objective 4.1 is specific in that all jurisdictions must have as a part of their emergency operations
                  plans provisions for all-hazard recovery; measurable as plans can be reviewed to determine if
                  recovery is a part of the plans and results-oriented when tested either through exercise or real
                  world events where recovery is necessary. A completion date was identified as October 2007.

                  Objective 1.1 is specific in that a statewide interoperable communications system is being
                  established/upgraded/enhanced with the use of the Law Enforcement Terrorism Prevention
                  Program and State Homeland Security Grant Program funds; it is measureable when we reach the
                  completion deadline and through exercise andlor real world events are able to communicate across
                  the state and with multiple jurisdictions on one statewide system; and time limited in that a
                  completion date of December 2007 was identified. This date was originally set for the
                  establishment of the system with upgrades and enhancements set to follow after that. Since
                  annual strategy reviews were not a requirement of the grant program, this strategy was not always
                  updated on an annual basis which did leave some timelines in the original strategy that had already
                  been met. With limited staff to manage the grant programs and ensure that funding was awarded
                  and expended accurately priorities had to be established which became; those that allowed the
                  funding to continue. We agrt:c tlwt annual updates would be the most appropriate but jf it was not
                  required it was not completed with our limited staff.




www.oig.dhs.gov                                                   24                                                      OIG-12-116
                                       OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security




             Ms. Anne L. Richards                                  3                                    July 31, 2012



                  Performance Measures
                  Perfonnance MeasureslPerfonnance Metrics are things that should have been established early in
                  the grant programs (1999) so that a baseline could have been set and the entire Nation could have
                  moved forward in a single fashion toward similar goals. Without a baseline set at the beginning of
                  any grant program it is very difficult to come in 13 years later and try to determine what the
                  basl!linl! shuuld have been and eVl!n mort: difficult or near impossible to go back truu far and
                  dctcnninc what you had or could do at that given time. Now, Arkansas, as with all other states
                  have had to learn how to look at their goals and objectives and determine how, as individual states,
                  that we each measure where we are today. For Arkansas this has consistently been shown with
                  exercises and the improvement plans as to what worked well and what didn't, then apply the
                  purchase of equipment and training and exen::ise again to detennine if response has increased
                  lbis is a measure of perfonnance and v.ithout initially established guidelines and baseline data, it
                  is impossible to detennine adequacy.
                  Since we did see a need for performance measures, although not initially required by the grant
                  program, Arkansas utilized grant funding to conduct our own Capabilities Assessment Tool which
                  was done at the local level so that a baseline could be established for our programs. We are
                  eurrendy in the process of a tool that will address the States capabilities that will then be rolled up
                  into one for an overall picture.

                  Timely Obligation of Grant Fuods
                  The audit report states the following:
                  • There must be some action to establish a finn commitment on the part of the awarding entity.
                  • There must be documentary evidence of the conunitment
                  • The awanl tenns mllst be communicated to the official grantee.
                     o Within the 45 day time frame ADEM provides a lener to the senior official of each
                         digible entity that includes the ammUlt of funding being obligated to their jurisdiction, the
                         timc frwne for cx:penditurc of the grunt funds, along with the special conditions of the
                         award i.e. following the OMB circulars, etc. (these items are copied and pasted directly
                         from the award document.. of the SAA intn the ~uh grantee letter). A copy of the letter is
                         sent to the Grant Program Coordinator in each jurisdiction as well as maintained in a
                         separate grant file for each jurisdiction in the SAA office.
                  • The action must be unconditional on the part of the awarding entity.
                     o Each year an application is submitted for an HSGP award and each period of perfonnance
                         runs tor three years. At any given time the SAA may have 4 to 5 open grant periods for
                         the HSGP. In addition. for several years the LElFP had to be kept separately making it 8
                         to 10 accounts for basically d1e same program/different years. One of the mandates that
                         have always come with the grant program is accountability: accountability for the
                         equipment; accountability for the sub grantees; accountability for the funding, etc. After
                         staning to receive these grants in 1999 and working for several years with the
                         jurbdil:tiumi; each year applying for and awarding yet another grant with different
                         guidelines and a ncw end date, it became very cwnbcrsome and confusing for not only the
                         state as the SAA but for the jwisdictions to keep straight what equipment could or could




www.oig.dhs.gov                                                    25                                                       OIG-12-116
                                       OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security




             Ms. Anne L. Richards                                 4                                    luly3 1,2012



                         not be bought with a specific grant year and to ensure that there was no comingling of
                         fimds. Add to this the push that was coming from Congress in the fonn of data calls for
                         SAA's to detennine why grant funds were not being expended expeditiously. To meet
                         this chaHenge Arkansas put into place a system where awards were made for each grant
                         year SO that jurisdictions had visibility of all funds available to them however. to assist
                          with acCOWltillg and effective grants administration, the first gmnt received must be
                         expended before the next grant would be released for expenditure. nus allowed thc local
                         jurisdictions to plan for upcoming project<; but also allowed them to focus on a project and
                         complete it before trying to move on to another. It kept the funding streams separate and
                         therefore enabled them to account for all their funds and make everything less confusing
                         which also increased the expenditure ratc. Since implementing the system our monitoring
                          visits with the local jurisdi(.1ions have fOWld fewer accoWlting errors and their satisfaction
                         with the program has increased. Monitoring visits from Region VI as well as FEMAIDHS
                         from DC have shown this to be a best practice in accoWJting for fimds and projects and we
                         have bem able to provide a dearer pi(.;lure of whc:re WI! an: in eat:h of gnml prugnuns al
                         any given time. The report states that ADEM did not make funds available to the sub
                          grantees when in fact the expenditure rate of the sub grantee was the determining factor in
                          when they expended/utilized their next award. This system does not prevent planning but
                          enhances it, when jurisdictions know what is coming and must move on their current
                         projects to get to the next olle. Jurisdictions must also provide timely budgets for approval
                         so that they can begin to expend. Again, this puts more accountability at the jwisdiction
                          level to ensure that the items they want to purchase are allowable under the grant program
                         before funds are expended.

                  P rocuremcnt Practices
                  This is an area that can and is addressed during monitoring visits. As stated in the report as well as
                  in other States, on site monitoring v.rith limited staff is difficult at best. The m inimal amount of
                  M&A available funding has made it extremely difficult to staff enough to administer the daily
                  operations of lh~ prognnn lu t:Ilsure thal funds art: expended properly and be on site to ensLUe that
                  the jurisdictions procurement practices are being followed. Each year the SM requires that at
                  least one person (usually the POC) from each jurisdiction participate in a grant workshop where
                  all of these types of requirements are outlined. Many times the rate quotes are obtained by the
                  jurisdictions through online processes but are not printed and docwnented for file. We understand
                  that more in-depth monitoring is key to finding these types of issues and as of the time of this
                  audit have already implemented a monitoring protocol and schedule.

                  GraDt Invent()ry Requirements
                  WiUl limited fWlding, Arkansas has not purchased an expensive inventOI)' control system but
                  rather uses a web based system where jurisdictions ore required to update their inventory at lease
                  semi-annually. In the report there is noted that our records showed equipment assigned to one
                  location however upon site visit the equipment wa" in another location. With the inventory
                  required semi-annually it is possible that equipment may be located in a different location since it




www.oig.dhs.gov                                                   26                                                       OIG-12-116
                                        OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security




             Ms. Anne L. Richards                                   5                                     July 31,2012



                  is used for response. Since very little of the equipment purchased with this grant is meant to be
                  stationary we did not find this to be outside of daily use of the equipment.
                  The report states that sub grantees did not always mark equipment purchased with HSGP fWlds
                  ""ith a sticker indicating HSGP nmds. In the grant guidance this is not listed as a requirement
                  however it is something that all sub grantees are advised that, "when practicable" items should be
                  marked with the statement "Purchased with funds provided by the US Department of Homeland
                  Security". For all other items the jurisdiction tag system should be used in which their records
                  ""ill indicate that the equipment ,,·:as purchased ""ith an HSGP grant

                  Sub grantee Program .Monitoring
                  As stated in the report as well as in other States, on site monitoring \\ith limited staff is difficult at
                  best. The minimal amount of M&A available funding has made it extremely difficult to staff
                  enough to administer the daily operations of the program to ensure that funds are expended
                  properly and be on site to ensure the appropriate practices of the jurisdictions. Each year the SAA
                  requires that at least one person (usually the POC) from each jurisdiction participate in a grant
                  workshop where all of these types of requirements are outlined. The report mentioru a particular
                  instance where a vehicle was purchased for the use by the bomb team, yet the truck was marked
                  SWAT. In talking with the jurisdiction this vehicle contained bomb team equipment and was
                  used every time the bomb team was called out. In addition, the jurisdiction advised that at any
                  time the vehicle was deployed, a bomb technician was on board to render scene safety as deemed
                  necessary. The vehicle has since been labeled "Bomb Squad". (See photo)




                  In the report is the statement " . . .it was only when we asked for copies of any reviews that ADEM
                  discovered that no reviews of sub grantees where conducted during the FY2008 through 201 0
                  grant years." With our system of expending one grant before another could be expended, we were
                  in tln: fmal :sl.<Jgt:s of t:xptnding FY2008 when this audit occurred with mallY juri&iictions just
                  starting to expend FY20Q9 and very little funds had been expended for FY20 1O. Monitoring visits
                  had been conducted in the months prior to the auditors visit but the FY2008, 2009 and 2010 funds
                  had not been a part of those particular monitot;ng visit~ so the report'i were not reviewed. Again,
                  we understand that more in-depth monitoring is key to finding issues and as of the time of this
                  audit have already implemented a monitoring protocol and schedule.




www.oig.dhs.gov                                                     27                                                         OIG-12-116
                                       OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security




             Ms. Anne L. Richards                                 6                                   July 31, 2012



                  Slate t)fArkurmlS RelPt)ns~ (t) Ihe RecummendutWm·

                  Recommendation #1:
                  ADEM as the SAA has already implemented an annual review of the State Homeland Security
                  Strategy and will continue to list goals and objectives that support projects ,",ithin our state that
                  can be measured based on our baseline with our measurements wril directed otherwise by
                  FEMAlDHS.

                  N.ecommendation #2:
                  Until such time as a comprehensive perfonnance measurement is put into place nationwide
                  Arkansa5 ,",ill continue to measure capability based on our assessment tool and the baseline we
                  have established.

                  Recommendation #3:
                  In urder tu pruperly manage the grant prognull fur the Slate of Arkw:C::i<:L'l ,1ud pruvide timely
                  infonnation concerning our expenditures to Congress wc intend to continue our pmcticc already
                  established as it is the best practice for ensuring adequate accounting and jurisdiction satisfaction
                  for the grant program.

                  Rt!(:ommeodation #4:
                  Sub grantees will be more closely monitored and inventory more clearly marked as well as
                  procurement procedures better defined during desk and on site monitoring visits. With the
                  substantial decrease in funding beginning in FY 12 we will be changing our entire award process
                  and will look to these suggestions as we put the new system into place.

                  Recommendation #5:
                  Protocols tor monitoring as well as a regular schedule ha,:e already heen put into place.

                  Please do not hesitate to contact us with any questions or concerns regarding the infonnation
                  provided in this document.

                                                              Sincerely.




                                                              Director and State Homeland Security Advisor

                  DM:to




www.oig.dhs.gov                                                   28                                                      OIG-12-116
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix D
   Description of Homeland Security Grant Program
   HSGP provides Federal funding to help State and local agencies enhance capabilities to
   prevent, deter, respond to, and recover from terrorist attacks, major disasters, and
   other emergencies. HSGP encompasses several interrelated Federal grant programs
   that together fund a range of preparedness activities, including planning, organization,
   equipment purchase, training, and exercises, as well as management and administration
   costs. Programs include the following:

   •	 The State Homeland Security Program provides financial assistance directly to each
      of the States and U.S. Territories to prevent, respond to, and recover from acts of
      terrorism and other catastrophic events. The program supports the implementation
      of the State Homeland Security Strategy to address identified planning, equipment,
      training, and exercise needs.

   •	 The Urban Areas Security Initiative provides financial assistance to address the
      unique planning, equipment, training, and exercise needs of high-risk urban areas,
      and to assist in building an enhanced and sustainable capacity to prevent, respond
      to, and recover from threats or acts of terrorism and other disasters. Allowable
      costs for the urban areas are consistent with SHSP. Funding is expended based on
      the Urban Area Homeland Security Strategies.

   HSGP also includes other interrelated grant programs with similar purposes. Depending
   on the fiscal year, these programs may include the following:

   •	 Metropolitan Medical Response System
   •	 Citizen Corps Program
   •	 Operation Stonegarden (beginning FY 2010)




www.oig.dhs.gov                              29                                 	   OIG-12-116
                                                         OFFICE OF INSPECTOR GENERAL
                                                                   Department of Homeland Security


   Appendix E
   Description of State of Arkansas’ Homeland Security Grant
   Program Process5

                                                                   State of Arkansas Grant Process



                                                         3. SAA meets with
         1. FEMA Releases        2. SAA updates             the Governor,           4. Recommendations
          Guidance to the           Strategy &                                                                                                 6. FEMA Review
                                                           advisory group          from the advisory group        5. The application
               State                 develops                                                                                                    and the grant
                                                            and executive             go to the executive          from the SAA is
            Administrative          Investment                                                                                                award document is
                                                              committee             committee, then to the       submitted to FEMA
            Agency (SAA)         Justification (IJ)                                                                                            sent back to SAA
                                                         Also complete the                 governor
                                                          IJ based on the
                                                               guidance




                                                                                    9.The Grant
                                                                                   Authorization
         7. SAA signs the
                                                                                Notice (GAN) goes
                                                                                                               10. SAA must obligate                 11. Award letter
            award letter                                                                                       80 percent of the funds              has been accepted
                                            8. Award letter goes                to SAA---GAN has
           accepting the                                                                                                                                 by SAA---
            grant funds
                                             back to FEMA for                         period of                awarded to subgrantee                 Subgrantee time
                                             signature approval                  performance and                  within 45 days of
            ( No Funds                                                                                                                                frame to spend
                                                                                  all details of the
            Exchange)
                                                                                  award date and
                                                                                                                 receipt of the funds                  funding starts
                                                                                special conditions




                                                                                                              15.Budget Approval
                                                                                                                                           Note: Award Letter has the funding
           12. Award Letter is signed by         13. MOA comes                    14. SAA reviews             letter is sent back to
                                                                                                                                           categories, the Memo of Agreement
             SAA Director and County               back to SAA                      the budget for               subgrantee with
                                                                                                                                             (MOA), special conditions, and is
                      Judge                                                            approval                 completion of the
                                                                                                                                             split out between SHSP and Law
                                                                                   -to ensure total                    review
                                                                                                                                            Enforcement Terrorism Prevention
                                                                                  request matches                                                         Program
                                                                                      total award




                                                                                                       Note: Subgrantee and SAA may
           16. SAA Release of                                         18. Invoice for                  go back and forth to ensure the
                                      17. Sub grantee order         procurement sent                     procurements is allowable
           Funds letter to sub
                                            & receive                  to SAA from                        according to FEMA policy
                grantee
                                          procurement.                 sub grantee
          (No funds Exchange)




                                                                                                                       20. Grant Payment
                                                                                                                      Authorization (GPA)           21. Funds are released
                                  Note: A Jurisdiction Reimbursement
                                                                               19. Spreadsheet with                  This is when SAA uses        from state Treasury to sub
                                 Request form is sent to SAA from Sub
                                                                              purchases goes to sub                 the FEMA Payment and                   grantee
                                 grantee with the procurement invoice
                                                                                grantee from SAA                   Reporting System to draw           (Funds exchange)
                                                attached
                                                                                                                           down funds




                                                                                                                            Note: Takes 5-7 business days to receive the funds
                                                                                                                              from FEMA in the State Treasury. Then it takes
                                                                       22. A confirmation                                      another 5 business days for the sub grantee to
                                                                     letter is sent from the                                  receive the funds from the State Treasury. The
                                                                       subgrantee that the                                  funds must stay with the State Treasury for at least
                                                                      funds were received                                   24 hours before funds are released to subgranteee




   5
       Source: DHS OIG.


www.oig.dhs.gov                                                                                30                                                                                  OIG-12-116
                              OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   Appendix F
   Number of Days Elapsed Between Required Obligation and
   Availability
                            Date FEMA          Funds Required
                          Awarded Funds to     To Be Obligated       Actual Date Funds      Number of Days Late
    Subgrantee                 State           Within 45 Days         Were Obligated
                                  9/3/2008           10/18/2008              1/24/2011              828
                                8/21/2009             10/5/2009              7/12/2011              645
    Benton County               9/17/2010             11/1/2010             12/12/2011              406
                                  9/3/2008           10/18/2008               2/5/2010              475
                                8/21/2009             10/5/2009              7/27/2011              660
    City of Little Rock         9/17/2010             11/1/2010             12/12/2011              406
                                  9/3/2008           10/18/2008              8/27/2010              678
                                8/21/2009             10/5/2009             10/20/2011              745
    Craighead County            9/17/2010             11/1/2010             12/12/2011              406
                                  9/3/2008           10/18/2008              12/3/2010              776
                                8/21/2009             10/5/2009              7/14/2011              647
    Crittenden County           9/17/2010             11/1/2010             12/12/2011              406
                                  9/3/2008           10/18/2008              3/16/2009              149
                                8/21/2009             10/5/2009              8/22/2011              686
    Faulkner County             9/17/2010             11/1/2010             12/12/2011              406
                                  9/3/2008           10/18/2008               9/1/2010              683
                                8/21/2009             10/5/2009             11/23/2011              779
    Garland County              9/17/2010             11/1/2010             12/12/2011              406
                                  9/3/2008           10/18/2008              8/19/2010              670
                                8/21/2009             10/5/2009             11/17/2011              773
    Greene County               9/17/2010             11/1/2010             12/12/2011              406
                                  9/3/2008           10/18/2008              8/15/2011              1031
                                8/21/2009             10/5/2009              12/8/2011              794
    Jackson County              9/17/2010             11/1/2010             12/12/2011              406
                                  9/3/2008           10/18/2008             11/10/2010              753
                                8/21/2009             10/5/2009              9/13/2011              708
    Lawrence County             9/17/2010             11/1/2010             12/12/2011              406
                                  9/3/2008           10/18/2008               3/4/2009              137
                                8/21/2009             10/5/2009              8/27/2010              326
    Logan County                9/17/2010             11/1/2010             12/12/2011              406
                                  9/3/2008           10/18/2008              3/17/2011              880
                                8/21/2009             10/5/2009              9/21/2011              716
    Mississippi County          9/17/2010             11/1/2010             12/12/2011              406
                                  9/3/2008           10/18/2008               4/8/2010              537
                                8/21/2009             10/5/2009              2/14/2011              497
    Pulaski County              9/17/2010             11/1/2010             12/12/2011              406
                                  9/3/2008           10/18/2008              3/12/2010              510
                                8/21/2009             10/5/2009             11/18/2010              409
    Saline County               9/17/2010             11/1/2010             12/12/2011              406
                                  9/3/2008           10/18/2008              7/14/2009              269
                                8/21/2009             10/5/2009               8/4/2010              303
    Sebastian County            9/17/2010             11/1/2010             12/12/2011              406
                                  9/3/2008           10/18/2008               6/7/2010              597
                                8/21/2009             10/5/2009              7/14/2011              647
    Washington County           9/17/2010             11/1/2010             12/12/2011              406
                                 9/3/2008           10/18/2008               6/9/2010               599
                                8/21/2009             10/5/2009              3/8/2011               519
    Union County                9/17/2010             11/1/2010            12/12/2011               406
   Source: DHS OIG.                *Note: FY 2010 was calculated as of December 12, 2011, the date of the OIG file review.




www.oig.dhs.gov                                       31                                                        OIG-12-116
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


   Appendix G
   Major Contributors to This Report
   Patrick O’Malley, Director
   Cheryl Jones, Audit Manager
   Tia Jackson, Program Analyst
   Richard Kotecki, Auditor
   Melissa Motley, Program Analyst
   Brian Smythe, Program Analyst
   Sandra Ward-Greer, Auditor
   Jeffrey Wilson, Program Analyst
   Jeanne Genao, Independent Referencer




www.oig.dhs.gov                           32                   OIG-12-116
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix H
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretariat
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   Federal Emergency Management Agency

   Administrator
   Assistant Administrator, Grant Programs Directorate
   Federal Emergency Management Agency Audit Liaison
   Grant Programs Directorate Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  33                        OIG-12-116
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
